   April 13, 2005




Infrastructure and Environment

Joint Chiefs of Staff Data Call
Submissions and Internal Control
Processes for Base Realignment and
Closure 2005
(D-2005-049)




             Department of Defense
            Office of Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To request copies of this report, contact Ms. Kimberley A. Caprio at (703)
  604-9202 (DSN 664-9202) or Ms. Carol N. Gorman at (703) 604-9314
  (DSN 664-9314).

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:
                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms
BRAC                  Base Realignment and Closure
COBRA                 Cost of Base Realignment Actions
DA&M                  Director, Administration and Management
DoD OIG               Department of Defense Office of Inspector General
DWO                   Defense-Wide Organizations
HSA                   Headquarters and Support Activities
ICP                   Internal Control Plan
JCS                   Joint Chiefs of Staff
JCSG                  Joint Cross Service Group
JPAT 7                Joint Process Action Team Criterion Number 7
OSD                   Office of the Secretary of Defense
                             INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAW DRIVE
                         ARLINGTON, VIRGINIA 222024704




                                                                          April 13,2005
MEMORANDUM FOR CHAIRMAN, JOINT CHIEFS OF STAFF
SUBJECT: Report on Joint Chiefs of StafTData Call Submissions and Internal Control
         Processes for Base Realignment and Closure 2005 (Report No. D-2005-049)

        We are providing this report for your information and use. No written response to
this report was required, and none was received. Therefore, we are publishing this report
in final form.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Kimberley A. Caprio at (703) 604-9202 @SN 664-9202) or Ms. Carol N. Gorman
at (793) 604-9314 (DSN 664-9314). See Appendix B for the report distribution. The
team members are listed inside the back cover.



                                -Qw
                              By direction of the Deputy Inspector General for Auditing:

                                          Richard B. Jo liffe
                                            Acting Director
                                       for Contract Management
                Department of Defense Office of Inspector General
Report No. D-2005-049                                                        April 13, 2005

   (Project No. D2004-D000CB-0107.000)

                  Joint Chiefs of Staff Data Call Submissions
                   and Internal Control Processes for Base
                        Realignment and Closure 2005

                                 Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel responsible for deciding the realignment or closure of military installations
based on the Base Realignment and Closure (BRAC) data calls, and Joint Chiefs of Staff
management personnel should read this report. The report discusses the validity,
integrity, and supporting documentation of the data provided by the Joint Chiefs of Staff
to assist the Secretary of Defense in BRAC 2005 recommendations.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
Responsibilities, and Procedures,” April 16, 2003, which stated that the Department of
Defense Office of Inspector General would review the accuracy of BRAC data and the
certification process.

The BRAC 2005 process was divided into the following data calls: capacity analysis,
supplemental capacity, military value, Cost of Base Realignment Actions, Joint Process
Action Team Criterion Number 7, and scenario specific. The supplemental capacity,
military value, Cost of Base Realignment Actions, and Joint Process Action Team
Criterion Number 7 data calls were collectively known as the second data call. We
issued site memorandums for the capacity analysis data call and the second data call to
summarize the results of the site visits. This report summarizes issues related to the Joint
Chiefs of Staff BRAC 2005 process as of January 12, 2005.

The Joint Chiefs of Staff is a Defense-Wide Organization responsible for the unified
strategic direction of the combatant forces; the combatant forces operation under unified
command; and the combatant forces integration into an efficient team of land, naval, and
air forces. The Chairman of the Joint Chiefs of Staff is the principal military adviser to
the President, Secretary of Defense, and the National Security Council. The Joint Chiefs
of Staff is located in the Pentagon and has four other offices in the Washington, D.C.,
area. The Joint Chiefs of Staff BRAC officials ∗ located at the Pentagon were responsible
for collecting and submitting Joint Chiefs of Staff BRAC responses for all of the Joint
Chiefs of Staff; therefore, we did not visit the other Joint Chiefs of Staff office locations
during the review.

Results. We evaluated the validity, integrity, and supporting documentation of the Joint
Chiefs of Staff BRAC 2005 data and compliance with the Office of the Secretary of
Defense’s and the Defense-Wide Organizations’ internal control plans for the capacity
analysis data call, the second data call, and the scenario specific data calls. The Joint
Chiefs of Staff BRAC 2005 data were generally supported, complete, and reasonable
once corrections were made. However, for the capacity analysis data call, 2 out of the
77 responses were partially supported because data to support the number of contractor
employees were unavailable. For the second data call, 1 out of the 48 responses was
unsupported because data to support the number of authorized personnel located in leased
facilities were unavailable. We cannot determine if these questions have a material effect
on the BRAC 2005 analysis for the Joint Chiefs of Staff. The Joint Chiefs of Staff data
collection processes generally complied with the Defense-Wide Organizations’ internal
control plan, and the Defense-Wide Organizations’ internal control plan properly
incorporated the Office of the Secretary of Defense’s internal control plan. However, we
identified a noncompliance issue during the capacity analysis and second data calls. The
Joint Chiefs of Staff did not provide all signatures and dates as required by the Defense-
Wide Organizations’ internal control plan. The noncompliance with the internal control
plan is not considered material and should not impact the reliability of the Joint Chiefs of
Staff data for use in BRAC 2005 analysis. Subsequent to our site visit, the Joint Process
Action Team Criterion Number 7 group may request further changed responses; we will
not be reviewing those responses. As of January 12, 2005, the Joint Chiefs of Staff
received two scenario specific data calls.

Management Comments. We provided a draft of this report on March 15, 2005. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




∗
    The Joint Chiefs of Staff BRAC official for the capacity analysis data call was the Division Chief of Joint
     Chiefs of Staff Force Structure Resources and Assessment Directorate (J-8), Support Agency, Reform and
     Assessment Office. The Joint Chiefs of Staff BRAC official for the second and scenario specific data
     calls was the Reserve Force Advisor of Joint Chiefs of Staff Force Structure Resources and Assessment
     Directorate (J-8).



                                                        ii
Table of Contents
Executive Summary                                                          i

Background                                                                1

Objectives                                                                3

Finding
     Joint Chiefs of Staff BRAC 2005 Data Call Submissions and Internal
         Control Processes                                                4

Appendixes
     A. Scope and Methodology                                              8
     B. Report Distribution                                               11
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, established the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its terrorities. The law authorized the establishment
    of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Infrastructure Executive Council and the
    Infrastructure Steering Group as the Base Realignment and Closure (BRAC) 2005
    deliberative bodies responsible for leadership, direction, and guidance. The
    Secretary of Defense must submit recommendations to the independent
    Commission by May 16, 2005.

    Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, is to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established seven
    Joint Cross Service Groups (JCSG): Education and Training, Headquarters and
    Support Activities, Industrial, Intelligence, Medical, Supply and Storage, and
    Technical. The JCSGs addressed issues concerning common business-oriented
    support functions, examined functions in the context of facilities, and developed
    closure and realignment recommendations based on force structure plans of the
    Armed Forces and on selection criteria. To analyze the issues, each JCSG
    developed data call questions to obtain information about the functions that they
    reviewed.

    BRAC Data Calls. The BRAC 2005 process was mandated for the United States
    and its territories and was divided into the following data calls: capacity analysis,
    supplemental capacity, military value, Cost of Base Realignment Actions
    (COBRA), Joint Process Action Team Criterion Number 7 (JPAT 7), and scenario
    specific. The supplemental capacity, military value, COBRA, and JPAT 7 data
    calls were collectively known as the second data call. The Services, Defense
    agencies, and Defense-Wide Organizations (DWO) used either automated data
    collection tools or a manual process to collect data call responses. Specifically,
    the data calls were to accomplish the following:
           •   the capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity;

           •   the supplemental capacity data call clarified inconsistent data gathered
               during the initial capacity analysis data call;

           •   the military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               manpower;

           •   the COBRA data call gathered data to develop costs associated with
               realigning or closing specific functions or bases;




                                          1
                    •    the JPAT 7 data call gathered data to assess the community’s ability to
                         support additional forces, missions, and personnel associated with
                         individual scenarios; 1 and

                    •    the scenario specific data call gathered data related to scenarios for
                         realignment or closure.

           Department of Defense Office of Inspector General Responsibility. The
           “Transformation Through Base Realignment and Closure (BRAC 2005) Policy
           Memorandum One—Policy, Responsibilities, and Procedures,” April 16, 2003,
           required the Department of Defense Office of Inspector General (DoD OIG) to
           provide internal control plan (ICP) development and implementation advice,
           review the accuracy of BRAC data, and evaluate the data certification processes.
           In addition, the memorandum required DoD OIG personnel to provide assistance
           as needed to the JCSGs and DoD Components. This report summarizes DoD OIG
           efforts related to the Joint Chiefs of Staff (JCS) BRAC 2005 process.

           DWOs. DWO is a collective term for 11 Defense Organizations. 2 JCS is one of
           the 11 DWOs. The OSD Director, Administration and Management (DA&M) led
           the DWO BRAC 2005 process, and was responsible for collecting and submitting
           BRAC data for the DWOs. OSD DA&M was the primary data repository for all
           DWO data collections and requests, and assembled and forwarded BRAC-related
           data to the OSD BRAC Office and the JCSGs.

           ICPs. The DWO ICP outlines management controls designed to ensure the
           accuracy, completeness, and integration of all information and analytical
           processes used in the BRAC 2005 process. Before the BRAC data calls were
           released, OSD required the JCSGs, Services, Defense agencies, and DWOs to
           prepare an ICP that incorporated and supplemented the OSD ICP. The OSD ICP
           was distributed under the Under Secretary of Defense for Acquisition,
           Technology, and Logistics’ memorandum “Transformation Through Base
           Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
           Responsibilities, and Procedures,” April 16, 2003. OSD DA&M prepared
           “Defense-Wide Organizations Internal Control Plan for the 2005 Base
           Realignment and Closure Process,” on January 15, 2004. The overall DWO ICP
           and Appendixes L and M of the DWO ICP apply to the 11 DWOs. Each DWO
           was responsible for preparing an organization-specific appendix to supplement
           the overall DWO ICP; Appendix D applied to JCS. The DWO ICP was updated
           on August 2, 2004. The DWOs changed from a manual process to the data
           gathering tool 3 for the second data call. For the second and scenario specific data
           calls, JCS used the August 2, 2004, DWO ICP.

           JCS. JCS is responsible for the unified strategic direction of the combatant
           forces; the combatant forces operation under unified command; and the combatant
           forces integration into an efficient team of land, naval, and air forces. The
1
    A scenario is a description of one or more potential closure or realignment actions identified for formal
    analysis by either a JCSG or a Military Department.
2
    The 11 Defense Organizations that comprise the DWOs are OSD, JCS, DoD OIG, Office of Economic
    Adjustment, Department of Defense Education Activity, Defense Human Resources Activity, TRICARE
    Management Activity, American Forces Information Service, Defense Prisoner of War/Missing Personnel
    Office, Defense Technology Security Administration, and Washington Headquarters Service.
3
    A modified Microsoft Access tool.



                                                        2
    Chairman of the JCS is the principal military adviser to the President, Secretary of
    Defense, and the National Security Council. The JCS consists of the Chairman,
    the Vice Chairman, the Chief of Staff of the Army, the Chief of Naval Operations,
    the Chief of Staff of the Air Force, and the Commandant of the Marine Corps.
    JCS is located in the Pentagon and has four other offices in the Washington, D.C.,
    area at Crystal Mall 3, Crystal Mall 4, Crystal Plaza 5, and 201 South Clark
    Street, Arlington, Virginia. The JCS BRAC officials were located at the Pentagon
    and appointed to collect and submit JCS BRAC responses for all of JCS;
    therefore, we did not visit the other JCS office locations during the review.

Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that JCS collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether JCS complied with the
    OSD and DWO ICPs. This report is one in a series on data call submissions and
    internal control processes for BRAC 2005. See Appendix A for a discussion of
    the scope and methodology, our review of the management control program, and
    prior coverage related to the objectives.




                                         3
           Joint Chiefs of Staff BRAC 2005 Data
           Call Submissions and Internal Control
           Processes
           The responses provided by JCS to the BRAC 2005 data calls were
           generally supported, complete, and reasonable once corrections were
           made. However, for the capacity analysis data call, 2 out of the
           77 responses were partially supported because data to support the number
           of contractor employees were unavailable. For the second data call, 1 out
           of the 48 responses was unsupported because data to support the number
           of authorized personnel located in leased facilities were unavailable. We
           cannot determine if these questions have a material effect on the
           BRAC 2005 analysis for JCS. JCS generally complied with the ICPs, and
           the DWO ICP properly incorporated the OSD ICP. However, we
           identified a noncompliance issue during the capacity analysis and second
           data calls. Specifically, JCS did not provide all signatures and dates as
           required by the DWO ICP. The noncompliance with the ICP is not
           considered material and should not impact the reliability of the JCS data
           for use in BRAC 2005 analysis.

JCS BRAC 2005 Data Call Submissions
    The responses provided by JCS to the BRAC 2005 data calls were generally
    supported, complete, and reasonable once corrections were made. For the
    capacity analysis, second, and scenario specific data calls, JCS provided either an
    answer or a “Not Applicable” response to the questions. A “Not Applicable”
    response was provided when either DWO or JCS BRAC officials determined that
    the question did not apply to JCS. To ensure accuracy, we compared JCS
    responses to supporting documentation and reviewed the response to ensure
    reasonableness and completeness. We also reviewed the “Not Applicable”
    responses for reasonableness.

    Capacity Analysis Data Call. The responses provided by JCS were generally
    supported, complete, and reasonable for the capacity analysis data call once
    corrected; however, 2 out of the 77 responses were partially supported.
    Specifically, with the exception of those two responses, JCS answers were
    supported, complete, and reasonable; and “Not Applicable” responses were
    reasonable. OSD DA&M directed JCS to answer 75 of the 752 capacity analysis
    data call questions identified as applicable to the DWOs by the Headquarters and
    Support Activities (HSA) JCSG. OSD DA&M also directed JCS to review the
    remainder of the 752 questions to determine if any other questions were
    applicable to JCS. JCS reviewed the remainder of the questions and identified
    two additional applicable questions, and therefore, responded to 77 of the
    752 questions. For each of the 77 questions, JCS either answered the question or
    determined the question to be “Not Applicable.” We evaluated the responses and
    supporting documentation at JCS, and we identified responses lacking reasonable
    support and responses that were inconsistent with the support provided. Based on




                                         4
           our review, JCS processed change adjudications 4 or provided additional
           supporting documentation to correct the issues raised. We verified and concurred
           with the changes. JCS stated it would forward the changed responses to OSD
           DA&M; however, we did not verify that the responses made it into the OSD
           Database.

           For the capacity analysis data call, 2 of the 77 responses were partially
           supported; 5 specifically, the responses to questions 461 and 462. The responses
           to questions 461 and 462 were partially supported because JCS was unable to
           provide documentation to support the number of contractor personnel; therefore,
           we were unable to fully validate the data.

           JCS should identify and obtain adequate supporting documentation and process
           change adjudications, if necessary, for questions 461 and 462.

           Second Data Call. JCS provided responses that were generally supported,
           complete, and reasonable for the second data call once corrected; however,
           COBRA question 1505 was unsupported. In addition, we did not make a
           determination as to whether the responses for HSA JCSG questions 1907 6 and
           1908 7 were supported, complete, and reasonable. With the exception of those
           three responses, the JCS responses were supported, complete, and reasonable
           once corrections were made; and “Not Applicable” responses were reasonable.
           For the second data call, OSD DA&M directed JCS to answer 48 questions. OSD
           DA&M also directed each DWO to review the remainder of the questions to
           determine if any were applicable to its specific organization. The JCS BRAC
           official reviewed the remainder of the questions and did not identify any that were
           applicable to JCS. The JCS office locations 8 were required to answer the JPAT 7
           and COBRA data call questions; however, the JCS BRAC official provided a
           single response for JCS that included these office locations. For each of the
           48 questions, JCS either answered the question or determined the question to be
           “Not Applicable.” We evaluated the responses and supporting documentation and
           identified responses lacking reasonable support and responses that were
           inconsistent with the support provided. Based on our review, JCS processed
           change adjudications or provided additional supporting documentation to correct
           the issues raised. We verified and concurred with the changes. JCS stated it
           would forward the changed responses to OSD DA&M; however, we did not
           verify that the responses made it into the OSD Database.

           JCS was unable to provide support for 1 of the 48 responses; specifically, the
           response to COBRA question 1505. JCS was unable to provide a Unit Manning

4
    A change adjudication is the process for amending and documenting the correction of a certified response
    in the BRAC data.
5
    We originally determined that the responses to questions 371 and 393 were partially supported; however,
    subsequent to our site visit, the HSA JCSG informed us that those questions would no longer be used for
    its analysis. As a result, we determined that no additional support was needed for questions 371 and 393.
6
    The question asks for the number of meetings between an organization’s senior officials, including flag
    officers, and senior officials from another organization located in the Washington, D.C., area.
7
    The question asks for the number of meetings between an organization’s senior officials, including flag
    officers, and members of Congress or their staffs.
8
    The JCS is located in the Pentagon and also has four other offices in the Washington, D.C., area at Crystal
    Mall 3, Crystal Mall 4, Crystal Plaza 5, and 201 South Clark Street, Arlington, Virginia.



                                                        5
     Document that identified authorized personnel located at JCS leased facilities (see
     Appendix A for JCS leased facilities); therefore, we were unable to validate and
     determine the reasonableness of the response.

     JCS should identify and obtain adequate supporting documentation and process
     change adjudications, if necessary, for COBRA question 1505.

     Scenario Specific Data Calls. JCS provided reasonable responses and
     supporting documentation for the scenario specific data calls. JCS received two
     scenario specific data calls as of January 12, 2005. We evaluated the responses
     and the supporting documentation at JCS and determined the responses provided
     were reasonable and no revisions were required.

Internal Control Processes
     JCS BRAC officials generally complied with the ICPs, and the DWO ICP
     properly incorporated the OSD ICP. However, for the capacity analysis and
     second data calls, we identified an ICP noncompliance issue. To evaluate
     compliance with the ICPs, we ensured that the DWO ICP properly incorporated
     the OSD ICP and evaluated whether JCS BRAC officials completed
     nondisclosure agreements, properly maintained e-mail information, appropriately
     marked and safeguarded BRAC data, and maintained complete BRAC data files.

     Compliance with ICP. JCS was generally compliant with the ICP procedures,
     with one exception. The ICP required that each response page include the
     signature of the answerer and certifying official and the certification date. We
     determined that JCS did not provide all signatures and dates as required by the
     ICP for the capacity analysis and second data calls. Despite the lack of signatures
     and dates, the responses were reasonable; therefore, we consider the
     noncompliance with ICP procedures to be immaterial. In accordance with the

     DWO ICP, JCS BRAC officials completed nondisclosure agreements, properly
     maintained e-mail information, appropriately marked and safeguarded BRAC
     data, and maintained complete BRAC data files.
     Completeness of ICP. The DWO ICP outlined management controls designed to
     ensure the accuracy, completeness, and integration of all information and
     analytical processes upon which the DWO was to submit documents, data, and
     information used in the BRAC 2005 process. The ICP established BRAC 2005
     responsibilities of JCS and control mechanisms to safeguard JCS BRAC
     information. The ICP detailed data requirements and sources and systems for
     verifying the accuracy of data and information. In addition, the ICP identified
     required documentation to justify changes made to data and information received
     from subordinate levels of the organization.

Conclusion
     The responses provided by JCS to the BRAC 2005 data calls were generally
     supported, complete, and reasonable once corrected. However, for the capacity
     analysis data call, 2 out of the 77 responses were partially supported because data


                                          6
to support the number of contractor employees were unavailable. For the second
data call, 1 out of the 48 responses was unsupported because data to support the
number of authorized personnel located in leased facilities were unavailable. We
cannot determine if these questions have a material effect on the BRAC 2005
analysis for JCS. JCS generally complied with the ICPs, and the DWO ICP
properly incorporated the OSD ICP. However, we identified a noncompliance
issue during the capacity analysis and second data calls. Specifically, JCS did not
provide all signatures and dates as required by the DWO ICP. The
noncompliance with the ICP is not considered material and should not impact the
reliability of the JCS data for use in BRAC 2005 analysis.

We discussed the results of the data call submissions and ICP review with JCS
upon completion of each data call; JCS concurred with our findings. The
responses to capacity analysis data call questions 461 and 462 remain partially
supported and responses to second data call COBRA question 1505 remain
unsupported. JCS should obtain adequate supporting documentation for those
responses.




                                     7
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and supporting documentation of JCS
   BRAC 2005 data. The evaluation included comparing responses to supporting
   documentation and reviewing “Not Applicable” responses to determine whether
   responses were reasonable. Questions required either an answer or a “Not
   Applicable” response; a “Not Applicable” response was for questions either OSD
   DA&M or JCS determined not to apply to JCS. However, we did not verify that
   the responses made it into the OSD Database. We ensured that the DWO ICP
   incorporated the requirements of the OSD ICP. We evaluated site data collection
   procedures to determine whether they were in compliance with the ICP to include
   reviewing the completion of nondisclosure agreements, and the collection,
   marking, safeguarding, and maintenance of BRAC data. In addition, we
   interviewed the personnel responsible for answering, reviewing, and certifying the
   responses to the data call questions. We did not verify

   Capacity Analysis Data Call. A January 23, 2004, OSD DA&M memorandum
   directed JCS to answer 75 of the 752 capacity analysis data call questions
   identified as applicable to the DWOs by the HSA JCSG. OSD DA&M also
   directed JCS to review the remainder of the questions to determine if any were
   applicable to its specific organization. JCS reviewed the remainder of the
   questions and identified two additional questions applicable to JCS. Therefore,
   JCS responded to 77 of the 752 capacity analysis data call questions. We did not
   validate the OSD DA&M or JCS selection process or the questions not selected.

   We reviewed the responses to the 77 capacity analysis data call questions. The
   JCS BRAC official was located at the Pentagon and appointed to collect and
   submit JCS BRAC responses for all of JCS; therefore, we did not visit the other
   JCS office locations during the review. We issued a site memorandum to
   summarize the results of the site visit. Specifically, we reviewed the following
   responses and support:

      •   questions 97, 112, 327 through 329, 356, 362, 364, 371, 382, 385 through
          387, 393, 446 through 448, 461, 462, 464, 466, 468, 471, 478, and
          480 through 482 with an answered response; and

      •   questions 311, 313 through 326, 347 through 355, 357 through 361, 363,
          365 through 370, 372 through 381, 383, 384, 388, and 582 with a “Not
          Applicable” response.

   Subsequent to our site visit, the HSA JCSG informed us that JCS responses to
   questions 371 and 393 would no longer be used for its analysis. As a result, we
   determined that no additional support was needed for those questions.

   Second Data Call. JCS BRAC officials received guidance from OSD DA&M,
   dated June 18, 2004, June 23, 2004, and July 22, 2004, to answer 11 HSA JCSG
   military value questions (1905, 1907 through 1911, 1915, 1917, 1976, 1977, and
   1979); 9 HSA JCSG supplemental capacity questions (4079 through 4081, 4096,
   and 4099 through 4103); 8 COBRA questions (1500 through 1507); and 20
   JPAT 7 questions (1400 through 1417, 1420, and 1421) for the second data call.
   OSD DA&M also directed the DWOs to review the remainder of the questions to
   determine if any were applicable to its specific organization. The JCS BRAC


                                       8
           official reviewed the remainder of the questions and did not identify any that were
           applicable to JCS. JCS complied with the OSD requirement to have all
           stand-alone facilities, which included leased facilities, answer the JPAT 7 and
           COBRA data call questions. The stand-alone facilities included four JCS office
           locations: Crystal Mall 3, Crystal Mall 4, Crystal Plaza 5, and 201 South Clark
           Street, Arlington, Virginia.

           We issued a site memorandum to summarize the results of the site visit.
           Specifically, we reviewed the following responses and support:

                   •   JPAT 7 questions 1400 through 1417, 1420, and 1421; 9 COBRA
                       questions 1501, 1503, 1505, and 1506; HSA JCSG military value
                       questions 1907, 1908, and 1911; and HSA JCSG Supplemental
                       Capacity questions 4099 through 4103 with an answered response; and

                   •   COBRA questions 1500, 1502, 1504, and 1507; HSA JCSG military
                       value questions 1905, 1909, 1910, 1915, 1917, 1976, 1977, and 1979;
                       and HSA JCSG Supplemental Capacity questions 4079 through 4081
                       and 4096 with a “Not Applicable” response.

           We did not verify the accuracy of supporting documentation for HSA JCSG
           military value questions 1907 and 1908. We could not verify the supporting
           documentation because it consisted of Microsoft Outlook calendars that could not
           be validated. Subsequent to our site visit, the JPAT 7 group may request further
           changed responses; we will not be reviewing those responses.

           In addition to reviewing the second data call responses, we followed up on
           outstanding issues from the capacity analysis data call. We validated the
           following initial capacity analysis questions: questions 97, 112, 327, 356, 362,
           364, 371, 382, 385 through 387, 393, 446 through 448, 461, 462, 464, 478, 481,
           and 482.

           Scenario Specific Data Calls. As of our site visit on January 12, 2005, JCS had
           received two scenario specific data calls from the JCSGs and submitted responses.
           We evaluated the responses, and followed up on outstanding issues from the
           capacity analysis and second data calls. We evaluated the JCS responses to HSA
           JCSG scenario specific data calls 0098 and 0099; capacity analysis data call
           questions 112, 327, 362, 371, 393, 461, 462, 464, 481, and 482; and the second
           data call COBRA question number 1505.

           We performed this audit from March 2004 through March 2005 in accordance
           with generally accepted government auditing standards.

           Use of Computer-Processed Data. We did not test the accuracy of the
           computer-processed data used to support the answers to the data call questions
           because of time constraints. Potential inaccuracies in the data could impact the
           results. However, the appointed certifying official certified the JCS BRAC data
           as accurate and complete to the best of the certifier’s knowledge and belief. We
           did not review the data gathering tool used by JCS during the second data call.


9
    The JPAT 7 group made the decision to replace JPAT 7 questions 1418 and 1419 with JPAT 7 questions
    1420 and 1421.



                                                    9
    Government Accountability Office High-Risk Areas. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Management of Federal Real Property and DoD Support
    Infrastructure Management high-risk areas.

Management Control Program Review
    We did not review the JCS management control program because its provisions
    were not deemed applicable to the one-time data collection process. However, we
    evaluated JCS internal control procedures for preparing, submitting, documenting,
    and safeguarding information associated with the BRAC 2005 data calls, as
    directed by the applicable ICPs. Specifically, we reviewed procedures that JCS
    used to develop, submit, and document its data call responses. In addition, we
    reviewed the controls implemented to safeguard the premature disclosure of JCS
    BRAC data before responses were forwarded to the OSD BRAC Office. Internal
    control procedures were adequate as they applied to the audit objective (See
    finding for additional details).

Prior Coverage
    During the last 5 years, the DoD Inspector General has issued two memorandums
    pertaining to JCS BRAC 2005.

DoD IG
    Site Memorandums

    DoD IG Memorandum, “Audit on the Second Data Call Submission From the
    Joint Chiefs of Staff for Base Realignment and Closure 2005,” October 28, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From the Joint Chiefs of Staff for Base Realignment and Closure 2005,”
    May 5, 2004




                                       10
Appendix B. Report Distribution

Office of the Secretary of Defense
Director, Base Realignment and Closure (Installations and Environment)
Chairman, Joint Chiefs of Staff

Non-Defense Federal Organizations
Government Accountability Office ∗




∗
    Only Government Accountability Office personnel involved in the BRAC process are to receive the
    report.



                                                    11
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Kimberley A. Caprio
Deborah L. Culp
Carol N. Gorman
Benjamin A. Mehlman
Robert M. Sacks
Shantiki S. Sanders
Brian S. Benner
Takia A. Matthews
Daniel L. Messner
Meredith H. Johnson
